TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2012 Statutory Audit of
                        Compliance With Legal Guidelines
                         Restricting the Use of Records of
                             Tax Enforcement Results



                                          August 7, 2012

                              Reference Number: 2012-30-090




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY AUDIT                     WHAT TIGTA FOUND
OF COMPLIANCE WITH LEGAL
                                                     The IRS achieved full compliance with RRA 98
GUIDELINES RESTRICTING THE USE OF                    Section 1204(a) requirements. Our review
RECORDS OF TAX ENFORCEMENT                           found that managers had not included ROTERs
RESULTS                                              in performance evaluation documents for the
                                                     145 employees reviewed.

Highlights                                           The IRS also achieved full compliance with
                                                     RRA 98 Section 1204(b) and (c) requirements.
Final Report issued on August 7, 2012                The IRS evaluated all employees on the fair and
                                                     equitable treatment of taxpayers and prepared
Highlights of Reference Number: 2012-30-090          quarterly self-certifications showing that
to the Internal Revenue Service Deputy               ROTERs were not used to evaluate employees.
Commissioner for Operations Support.                 In Fiscal Year 2011, the IRS launched
                                                     mandatory RRA 98 Section 1204 training for
IMPACT ON TAXPAYERS
                                                     managers and employees. TIGTA selected a
The IRS Restructuring and Reform Act of 1998         judgmental sample of 15 employees and found a
(RRA 98) requires the IRS to ensure that             high percentage of employees understood the
managers do not evaluate enforcement                 term “retention standard.” However, 13 percent
employees using any record of tax enforcement        were not sure they attended retention standard
results (ROTER) or base employee successes           training.
on meeting ROTER goals and quotas. Based
on the results of our sample, TIGTA believes the     WHAT TIGTA RECOMMENDED
IRS’s efforts to enforce the employee evaluation     TIGTA recommended that the Deputy
requirements under RRA 98 Section 1204 are           Commissioner for Operations Support
generally effective and are helping to protect the   strengthen the IRS’s efforts to achieve full
rights of taxpayers.                                 compliance with RRA 98 Section 1204
                                                     procedures by continuing the emphasis on
WHY TIGTA DID THE AUDIT
                                                     training.
TIGTA is required under Internal Revenue Code
                                                     The IRS agreed with the recommendation and
Section 7803(d)(1)(2000) to annually evaluate
                                                     plans to evaluate its current training and
whether the IRS complies with restrictions on
                                                     consider enhancing its program material, if
the use of enforcement statistics under RRA 98
                                                     appropriate, to ensure that IRS employees fully
Section 1204. Our review determined whether
                                                     understand the training.
the IRS complied with:
   Section 1204(a), which prohibits the IRS
    from using any ROTER to evaluate
    employees, or to impose or suggest
    production quotas or goals.
   Section 1204(b), which requires that
    employees be evaluated using the fair and
    equitable treatment of taxpayers as a
    performance standard.
   Section 1204(c), which requires each
    appropriate supervisor to self-certify
    quarterly whether ROTERs were used in a
    prohibited manner.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              August 7, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2012 Statutory Audit of Compliance
                             With Legal Guidelines Restricting the Use of Records of Tax
                             Enforcement Results (Audit # 201230009)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as set
 forth in the IRS Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury
 Inspector General for Tax Administration is required under Internal Revenue Code Section
 7803(d)(1)(2000) to annually evaluate the IRS’s compliance with the provisions of RRA 98
 Section 1204.
 The RRA 98 requires the IRS to ensure that managers do not evaluate enforcement employees2
 using any record of tax enforcement results (ROTER) or base employee successes on meeting
 goals and quotas for ROTERs. This review is part of our Fiscal Year 2012 Annual Audit Plan
 and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (213) 894-4470 (Ext. 128).


 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
 in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
 provides direction/guidance for RRA 98 Section 1204 program activities.
                              Fiscal Year 2012 Statutory Audit of Compliance With
                             Legal Guidelines Restricting the Use of Records of Tax
                                             Enforcement Results




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          First-Line and Second-Line Managers Appropriately Completed Their
          Quarterly Self-Certifications ......................................................................... Page 4
          The Internal Revenue Service Is in Full Compliance With the Use of
          Records of Tax Enforcement Results Procedures ......................................... Page 5
          Mandatory Section 1204 Training Is Increasing Employee
          Awareness of the Retention Standard ........................................................... Page 5
                    Recommendation 1:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Prior Audit Reports .............................................................. Page 15
          Appendix V – Example of Form 1204-M, Manager’s Quarterly
          Self-Certification – No Violations ................................................................ Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
          Fiscal Year 2012 Statutory Audit of Compliance With
         Legal Guidelines Restricting the Use of Records of Tax
                         Enforcement Results




                     Abbreviations

FY             Fiscal Year
IRS            Internal Revenue Service
ROTER          Record of Tax Enforcement Results
RRA 98         Restructuring and Reform Act of 1998
TIGTA          Treasury Inspector General for Tax Administration
                         Fiscal Year 2012 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                        Enforcement Results




                                          Background

On July 22, 1998, the President of the United States signed the Internal Revenue Service (IRS)
Restructuring and Reform Act of 1998 (RRA 98) into
law.1 RRA 98 Section 1204 restricts the use of
                                                                  RRA 98 Section 1204(a)
enforcement statistics. Specifically, RRA 98                   prohibits the IRS from using
Section 1204(a) prohibits the IRS from using any record      ROTERs to evaluate employees,
of tax enforcement results (ROTER) to evaluate                or to impose or suggest quotas
employees, or to impose or suggest quotas or goals for         or goals for such employees.
such employees.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recordings of the tax enforcement results reached in one or more cases. Examples of
ROTERs include the amount of dollars collected or assessed, the number of fraud referrals made,
and the number of seizures conducted. A ROTER does not include evaluating an individual case
to determine if an employee exercised appropriate judgment in pursuing enforcement of the tax
laws.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. The standard requires employees to administer the tax laws fairly and
equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity,
and respect. This provision of the law was enacted to provide assurance that employee
performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a quarterly
self-certification. In the self-certification, the appropriate supervisor attests to whether ROTERs
were used in a prohibited manner. The IRS defines an appropriate supervisor as the highest
ranking executive in a distinct organizational unit who supervises directly or indirectly one or
more Section 1204 enforcement employees.2 Current IRS procedures require each level of
management, beginning with first-line managers of Section 1204(a) employees, to self-certify as
to whether or not they used ROTERs in a manner prohibited by RRA 98 Section 1204(a). The



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
provides direction/guidance for RRA 98 Section 1204 program activities.
                                                                                                     Page 1
                         Fiscal Year 2012 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                        Enforcement Results



appropriate supervisor then prepares a consolidated office certification covering the entire
organizational unit.
The IRS functional offices and divisions, including the Office of the Chief, Appeals; the
Office of the Chief, Criminal Investigation; the Large Business and International Division; the
Small Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax
Exempt and Government Entities Division; and the Wage and Investment Division are
responsible for RRA 98 Section 1204 program implementation within their respective areas.
Section 1204 Program Managers and Coordinators in each business organization are available to
provide guidance to managers regarding Section 1204 issues, including the certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business organizations as of June 30, 2011. The Section 1204 managers either supervised a
Section 1204 employee or provided guidance or direction for Section 1204 activities.
          Figure 1: Number of Section 1204 and Non-Section 1204 Managers
                    by Business Organization (as of June 30, 2011)




Source: Our analysis of data from the IRS’s Corporate Planning and Internal Control database.

Internal Revenue Code Section 7803(d)(1)(2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with
restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed 13 annual reviews to meet this requirement. Appendix IV lists the prior
audit reports.



                                                                                                Page 2
                      Fiscal Year 2012 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                     Enforcement Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation; the Office of the National Taxpayer Advocate; the Large Business and
International Division; the Small Business/Self-Employed Division; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division, during the period
December 2011 through April 2012.
Onsite reviews were performed at the IRS field offices in Phoenix, Arizona; Plantation, Florida;
Baltimore, Maryland; Boston, Massachusetts; and Austin, Texas. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                             Fiscal Year 2012 Statutory Audit of Compliance With
                            Legal Guidelines Restricting the Use of Records of Tax
                                            Enforcement Results




                                         Results of Review

First-Line and Second-Line Managers Appropriately Completed Their
Quarterly Self-Certifications
All 40 first-line and second-line managers we sampled complied with the provisions of RRA 98
Section 1204(c) and completed the required self-certifications on the use of tax enforcement
results for the second and fourth quarters of Fiscal Year (FY) 2011.3 Each manager certified
whether or not ROTERs were used when evaluating employees. Appendix V reflects the
Form 1204-M, Manager’s Quarterly Self-Certification – No Violations, that managers use to
self-certify that there are no violations of RRA 98 Sections 1204(a) and (b).
RRA 98 Section 1204(c) requires specific supervisors to certify quarterly, in writing, to the IRS
Commissioner whether ROTERs were used in a prohibited manner. Therefore, managers who
evaluate Section 1204 employees are required to certify in writing that they did not:
          Use ROTERs to evaluate employees, or to impose or suggest production quotas or goals
           for employees in any performance evaluations, including appraisals, awards, or
           promotion justifications, written or reviewed by the manager.
          Verbally communicate to employees that ROTERs affected their evaluations.
          Verbally, or in writing, use ROTERs to impose or suggest production quotas or goals for
           employees or for work unit activities (e.g., through program guidance or business and
           program reviews).
Per the Internal Revenue Manual,4 the business organization and function Section 1204 Program
Managers and their respective Section 1204 Coordinators should monitor the quarterly
certification process and provide guidance to managers regarding Section 1204 issues throughout
their organizations/functions. Through the quarterly certification process, managers are
reminded of their responsibilities under RRA 98 Section 1204 not to evaluate their employees on
the basis of ROTERs. The quarterly certification process helps to ensure that managers are
aware of the IRS’s commitment to administer the tax laws fairly and to protect the rights of
taxpayers.




3
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
4
    Internal Revenue Manual 1.5.3 (Nov. 23, 2010).
                                                                                                                Page 4
                              Fiscal Year 2012 Statutory Audit of Compliance With
                             Legal Guidelines Restricting the Use of Records of Tax
                                             Enforcement Results



The Internal Revenue Service Is in Full Compliance With the Use of
Records of Tax Enforcement Results Procedures
In FY 2011, the IRS achieved full compliance with the Section 1204 employee or manager
performance-related documents reviewed.
To evaluate the IRS’s compliance with RRA 98
Sections 1204(a) and 1204(b), we selected a judgmental
sample of 35 first-line Section 1204 managers and              TIGTA auditors reviewed
105 employees in five sites.5 We selected seven managers       418 performance-related
and three of their employees at each site and reviewed        documents   for the 145 IRS
                                                                      employees.
their performance evaluation documents. We also
reviewed the performance documents for five second-line
Section 1204 managers. We evaluated a total of 418
FY 2011 performance-related documents, including mid-year and annual performance reviews,
employee self-assessments, and workload reviews documentation for the 145 employees, to
determine whether ROTERs were used when evaluating employees’ performance.
Based on the results of our review, we believe the IRS’s efforts to ensure that managers are not
using ROTERs to evaluate employees are effective and are helping to protect the rights of
taxpayers. The IRS continues to use its managerial self-certification process to identify and
report ROTER violations. In addition, each manager certified that ROTERs production goals or
quotas were not used when evaluating employees.

Mandatory Section 1204 Training Is Increasing Employee Awareness
of the Retention Standard
In FY 2011, the IRS established mandatory RRA 98 Section 1204 training for all managers and
employees. The training began March 1, 2011, and continued through September 30, 2011. To
evaluate the effectiveness of the IRS’s training during FY 2011, we interviewed a judgmental
sample of 15 Section 1204 employees to determine if they had received training and understood
the terminology “retention standard.” Specifically, we determined that:
          14 (93 percent) of the employees understood the term “retention standard.”
          13 (87 percent) of the employees were sure they attended training on this topic.




5
    See Appendix I for details of the IRS offices and five cities selected for our review.
                                                                                              Page 5
                         Fiscal Year 2012 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                        Enforcement Results



These percentages are a significant improvement over our prior year’s report,6 in which we
reported that 72 percent of the sampled employees understood the term, and only 59 percent
were sure they had received training related to the retention standard in FY 2010.
The first-line managers we sampled documented that they had evaluated employees on the
retention standard. According to RRA 98 Section 1204(b), IRS employees are to be evaluated
on the retention standard and the standard applies to all executives, managers, and other
employees.
On June 16, 1999, the IRS established a retention standard method to ensure that employee
performance is focused on providing quality service to taxpayers instead of on achieving
enforcement results. For all of the employees sampled, Block 9 of the Form 6850-BU,
Bargaining Unit Performance Appraisal and Recognition Election, or Form 6850-NBU,
Non-Bargaining Unit Performance Appraisal, was checked indicating that the employees were
evaluated on this standard. Figure 2 presents an example of the Form 6850-BU pertaining to the
retention standard.




6
  TIGTA, Ref. No. 2011-30-069, Fiscal Year 2011 Statutory Audit of Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results (Jul. 2011).
                                                                                                       Page 6
                         Fiscal Year 2012 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                        Enforcement Results



          Figure 2: Example of a Form 6850-BU Retention Standard Rating




                                                                             Block 9 is where
                                                                             managers should
                                                                             indicate that
                                                                             employees were
                                                                             evaluated on the
                                                                             retention standard
                                                                             in compliance with
                                                                             RRA 98 Section
                                                                             1204(b).




Source: Form 6850-BU.

In addition, we judgmentally selected seven second-line Section 1204 managers from each IRS
function or operating division to obtain their feedback on the FY 2011 training. All seven of the
managers thought the course material was comprehensive and beneficial. However,
five (71 percent) of the managers responded they did not instruct their first-line managers to have
follow-up meetings with their employees to ensure they understood the training.

Most employees understood the terminology, but some were not sure they
received retention standard training
A high percentage of employees understood the term “retention standard.” However, 13 percent
were not sure they attended retention standard training. On February 11, 2011, the IRS
announced the mandatory RRA Section 1204 training, which was staggered to accommodate the
operating and functional divisions’ workloads.
                                                                                            Page 7
                          Fiscal Year 2012 Statutory Audit of Compliance With
                         Legal Guidelines Restricting the Use of Records of Tax
                                         Enforcement Results



The training was required to ensure that Section 1204 employees and managers understand:
        The rules for appropriately using statistics in setting goals and measuring performance.
        The requirements for sharing and evaluating the Fair and Equitable Treatment of
         Taxpayers Retention Standard.
        The process for quarterly certification of compliance with Section 1204 requirements.
        That annual program reviews are conducted by the Chief Financial Officer and the
         TIGTA to assess Section 1204 compliance.
The training/briefing course was taken individually by employees through the Enterprise
Learning Management System7 and took approximately 30 minutes to complete. Figure 3 shows
the introduction to the new mandatory training.
                Figure 3: Introduction to Section 1204 Employees Briefing




Source: IRS Chief Financial Officer.



7
 A computer application that provides training, administration, and training resource management (i.e., instructors,
classroom, and all web resources for learning) to the IRS.
                                                                                                             Page 8
                      Fiscal Year 2012 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                     Enforcement Results



Based on the results of our review, the IRS’s efforts to conduct the mandatory RRA 98
Section 1204 training in FY 2011 indicate that the IRS is being proactive in obtaining full
compliance with Section 1204 requirements. However, continued emphasis is needed to ensure
all Section 1204 employees are aware of the importance of the RRA 98 Section 1204 training.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should strengthen
the IRS’s efforts to achieve full compliance with RRA 98 Section 1204 procedures by continuing
the emphasis on training. This effort could include expanding the training to at least one hour by
adding additional practice questions and more in-depth responses to incorrect answers to ensure
the employees fully understand the training.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Financial Officer will evaluate the current Enterprise Learning Management
       System Section 1204 training module and consider enhancing the program material, if
       appropriate, to ensure that IRS employees fully understand the training.




                                                                                           Page 9
                         Fiscal Year 2012 Statutory Audit of Compliance With
                        Legal Guidelines Restricting the Use of Records of Tax
                                        Enforcement Results



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 Section 1204.1
To accomplish this objective, we:
I.      Selected a judgmental sample2 of 40 managers from a population of 5,707 first-line and
        second-line managers to determine whether they complied with the provisions of RRA 98
        Sections 1204(a) and 1204(b) when evaluating their Section 1204 employees’3
        performance.
        A. Identified the Office of the Chief Financial Officer; the Office of the Chief, Appeals;
           the Office of the Chief, Criminal Investigation; the Office of the National Taxpayer
           Advocate; the Large Business and International Division; the Small Business/
           Self-Employed Division; the Tax Exempt and Government Entities Division; and the
           Wage and Investment Division office locations in various cities and the number of
           Section 1204 first-line managers located in each business organization.
            We judgmentally selected five cities for this year’s audit. Onsite reviews were
            performed at the IRS field offices in Phoenix, Arizona; Plantation, Florida;
            Baltimore, Maryland; Boston, Massachusetts; and Austin, Texas. We used FY 2011
            data to select the audit sites for the sample. The audit sites were judgmentally
            selected based on the number of Section 1204 first-line managers located at a site and
            the business organizations represented, prior audit coverage in FYs 2004 through
            2011,4 geographical location of potential cities for travel considerations, and whether
            the sites included enough Section 1204 managers and employees to satisfy our
            sample.
        B. Selected a judgmental sample of seven first-line managers per city and three
           Section 1204 employees for each manager in our sample. We selected managers and


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  We determined that a judgmental sample would be sufficient to identify noncompliance with RRA 98 Section 1204
and prompt management to take corrective action. A judgmental sample is a nonstatistical sample, the results of
which cannot be used to project to the population.
3
  An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
provides direction/guidance for RRA 98 Section 1204 program activities.
4
  We reviewed locations visited during prior audits to ensure locations selected were not duplicated.
                                                                                                      Page 10
                     Fiscal Year 2012 Statutory Audit of Compliance With
                    Legal Guidelines Restricting the Use of Records of Tax
                                    Enforcement Results



          employees from five sites that had at least five business organizations with
          Section 1204 first-line managers who had not been reviewed recently by the TIGTA
          or by the IRS’s independent reviews. This provided a total of 35 first-line
          Section 1204 managers and 105 Section 1204 employees for review. We obtained the
          FY 2011 performance evaluation documents prepared by the manager (including
          mid-year performance reviews, annual performance reviews, and workload reviews)
          to determine whether ROTERs were used in the evaluation process and employees
          were evaluated appropriately on the fair and equitable treatment of taxpayers.
       C. Determined that training records did not have to be reviewed as no ROTERs had been
          found in managers or employees evaluations or self-assessments.
       D. Interviewed a judgmental sample of 15 Section 1204 employees from the IRS sites
          visited concerning the use of ROTERs and their understanding of the retention
          standard. The overall population could not be determined because the sample was
          selected based on the employees in the office the day of our visits.
       E. Selected and reviewed a judgmental sample of five second-line Section 1204
          managers’ management performance evaluation documentation (i.e., mid-year
          performance reviews, annual performance reviews, etc.) for the inappropriate use of
          ROTERs. We focused on second-line managers whose performance documentation
          was located in the same cities as the first-line managers for each of the five sites
          selected for review.
II.    Determined whether the 40 selected first-line and second-line Section 1204 managers
       complied with RRA 98 Section 1204(c) by certifying by letter whether or not ROTERs
       were used in a manner prohibited by RRA 98 Section 1204(a).
       A. Obtained FY 2011 second and fourth quarter self-certifications for the selected
          first-line managers.
       B. Reviewed the self-certifications for compliance with IRS procedures.
III.   Determined the effectiveness of the mandatory RRA 98 Section 1204 training for
       managers and employees.
       A. Selected seven second-line Section 1204 managers from each function or operating
          division to obtain their feedback on the training.
       B. Reviewed the documentation to determine how and when the Section 1204 training
          was implemented.
       C. Reviewed the Section 1204 training materials to determine their effectiveness.
       D. Interviewed a judgmental sample of 15 Section 1204 employees from the IRS sites
          visited to determine if the employees had received the RRA 98 Section 1204 training.

                                                                                           Page 11
                      Fiscal Year 2012 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                     Enforcement Results



           The overall population could not be determined because the sample was selected
           based on the employees in the office the day of our visits.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: guidelines and rules related to using
ROTERs in a way as to improperly influence the handling of taxpayer cases and employees
understanding and adherence to the retention standard. We evaluated these controls and
reviewed judgmental samples of performance appraisals and signed self-certifications to
determine whether the IRS complied with restrictions on the use of enforcement statistics when
evaluating its employees.




                                                                                        Page 12
                     Fiscal Year 2012 Statutory Audit of Compliance With
                    Legal Guidelines Restricting the Use of Records of Tax
                                    Enforcement Results



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Tina Parmer, Audit Manager
Carol Gerkens, Lead Auditor
Andrea Barnes, Senior Auditor
Doris Cervantes, Senior Auditor
John Chiappino, Senior Auditor
Gwendolyn Green, Senior Auditor
Nancy Van Houten, Senior Auditor Evaluator
Frank O’Connor, Senior Program Analyst
Victor Taylor, Auditor




                                                                                    Page 13
                     Fiscal Year 2012 Statutory Audit of Compliance With
                    Legal Guidelines Restricting the Use of Records of Tax
                                    Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP:TP:SS
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO
       National Taxpayer Advocate TA




                                                                                    Page 14
                      Fiscal Year 2012 Statutory Audit of Compliance With
                     Legal Guidelines Restricting the Use of Records of Tax
                                     Enforcement Results



                                                                               Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed 13 audits in this subject area. The audit reports are:
   TIGTA, Ref. No. 2011-30-069, Fiscal Year 2011 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Jul. 2011).
   TIGTA, Ref. No. 2010-30-076, Fiscal Year 2010 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Jul. 2010).
   TIGTA, Ref. No. 2009-30-091, Fiscal Year 2009 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Jun. 2009).
   TIGTA, Ref. No. 2008-40-108, Fiscal Year 2008 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Apr. 2008).
   TIGTA, Ref. No. 2007-40-055, Fiscal Year 2007 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Mar. 2007).
   TIGTA, Ref. No. 2006-40-095, Fiscal Year 2006 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Jun. 2006).
   TIGTA, Ref. No. 2005-40-157, Fiscal Year 2005 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Sept. 2005).
   TIGTA, Ref. No. 2004-40-066, Fiscal Year 2004 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Mar. 2004).
   TIGTA, Ref. No. 2003-40-090, Fiscal Year 2003 Statutory Audit of Compliance With
   Legal Guidelines Restricting the Use of Records of Tax Enforcement Results
   (Mar. 2003).
   TIGTA, Ref. No. 2002-40-163, Compliance With Regulations Restricting the Use of
   Records of Tax Enforcement Results Shows Improvement (Sept. 2002).

                                                                                        Page 15
                 Fiscal Year 2012 Statutory Audit of Compliance With
                Legal Guidelines Restricting the Use of Records of Tax
                                Enforcement Results



TIGTA, Ref. No. 2001-10-178, Compliance With the Internal Revenue Service
Restructuring and Reform Act of 1998 Section 1204 Has Not Yet Been Achieved
(Sept. 2001).
TIGTA, Ref. No. 2000-10-118, Further Improvements Are Needed in Processes That
Control and Report Misuse of Enforcement Statistics (Sept. 2000).
TIGTA, Ref. No. 1999-10-073, The Internal Revenue Service Should Continue Its
Efforts to Achieve Full Compliance with Restrictions on the Use of Enforcement
Statistics (Sept. 1999).




                                                                                 Page 16
                          Fiscal Year 2012 Statutory Audit of Compliance With
                         Legal Guidelines Restricting the Use of Records of Tax
                                         Enforcement Results



                                                                        Appendix V

       Example of Form 1204-M, Manager’s Quarterly
            Self-Certification – No Violations




Source: Internal forms on the IRS website.


                                                                              Page 17
       Fiscal Year 2012 Statutory Audit of Compliance With
      Legal Guidelines Restricting the Use of Records of Tax
                      Enforcement Results



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 18
 Fiscal Year 2012 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax
                Enforcement Results




                                                     Page 19
